y
y
Supreme Court, U.S.
FILED

APR -7 2021
OFFICE OF THE CLERK

'14*1
(space for the docket number)

Supreme Court of the United States

Penelope McHatten and Kenneth and Susan Hafford
(Plaintiffs/Appelles/Respondents)
v.

Paul and Goldie Ballerstein
(Defendants/Appellants/Petitioners)

On Petition for Writ of Certiorari to the Supreme Court of Maine

Petition for Writ of Certiorari

Paul and Goldie Ballerstein
37 Dupont Drive
Presque Isle, Maine, 04769
(207)-551-1338

RECEIVED
APR - 9 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S._

QUESTIONS PRESENTED

In this civil case, Maine courts deprived the defendants of their property,
after concluding that the facts “foreclose” doing so. The trial court found that
actually meeting the statutory requirements was a “factual impossibility”,
but then it invoked that selfsame statute against them anyway. Gan a civil
court arbitrarily override clearly written statutory requirements?

The court purposefully ruled contrary to the facts on record, in violation of
statutory requirements, in order to penalize one party in favor of the other.
Does demonstrated judicial bias/prejudice prove insufficient Due Process, and
thereby render its entire judgment invalid?

1

LIST OF PARTIES
The caption of this petition contains all parties to the proceedings.
RULE 29.6 STATEMENT
There are no parent corporations or publicly held companies in this case.

TABLE OF CONTENTS
QUESTIONS PRESENTED

1

LIST OF PARTIES

n

RULE 29.6 STATEMENT

n

TABLE OF AUTHORITIES

m

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS AND ORDERS BELOW

1

BASIS FOR JURISDICTION

1

CONSTITUTIONAL PROVISIONS AND STATUTE AT ISSUE

2

STATEMENT OF THE CASE

2

THE FACTUAL AND REGULATORY BACKGROUND

2

RAISING OF THE FEDERAL QUESTIONS

4

REASONS FOR ALLOWANCE OF THE WRIT

5

Further clarification of Due Process includes easy-to-reach,
fundamentally vital questions of Constitutional law that have not
been, but should be, settled by this Court..............................................

5

Jurisdiction conferred; Property deprived without Due Process

6

The Questions of Law were sufficiently raised, but justice requires
full consideration of this petition even regardless............................... 6
Civil courts must be bound by the terms of statutory law

7

An unfair civil trial cannot provide due process; any civil judgment
resulting from an unfair trial is entirely invalid...................................... 8
SCOTUS: The Protector of all Civil Rights

9

CONCLUSION

10

APPENDIX: TABLE OF CONTENTS
“Memorandum of Decision”, Maine Supreme Court, decided 11/3/2020

A-l

“Decision Re: Declaratory Judgments and Questions of Liability7’, Maine
Superior Court: Aroostook County, entered 1/31/2020
B(l)-1
“Final Judgment”, Maine Superior Court: Aroostook County,
entered 3/5/2020....... ,............... ,................................................

B(2)-l

“Order Denying Motion for Reconsideration”, Maine Supreme Court,
dated 12/3/2020.........................................................................................

C-l

“Brief for Appellants” pages 14, 15

D-l

“Reply Brief for Appellants” page 14-16

E-l

TABLE OF AUTHORITIES
Cases:
In re Murchison. 349 U.S. 133, 136, 75 S. Ct. 623, 625, 99 L. Ed. 942 (1955). .8
Law v Siegel. 571 U.S. 415, 421, 134 S. Ct. 1188, 1194, 188 L. Ed. 2d 146
(2014) .............................................................................................................

7

Welch v United States. 136 S. Ct. 1257, 1268, 194 L. Ed. 2d 387 (2016)

7

Williams y. Pennsylvania. 136 S. Ct. 1899, 1905, 195 L. Ed. 2d 132 (2016).... 7

iii

Yee v. City of Escondido. Cal.. 503 U.S. 519, 533, 112 S. Ct. 1522, 1531, 118
L. Ed. 2d 153 (1992)........ .................................................................................... 7

Maine Statute:
14 M.R.S. §7552(5)

2,3

IV

PETITION FOR A WRIT OF CERTIORARI
Paul and Goldie Ballerstein respectfully petition for a writ of certiorari to
review the judgment of the Supreme Court of Maine
OPINIONS AND ORDERS BELOW
The decision below of Maine’s Supreme Court is unpublished and its
disposition is reported at Aroostook County Superior Court in Caribou,
Maine. The opinion is reproduced in the Appendix at A-l
The first half of the bifurcated decision (Decision Re: Declaratory
Judgments and Questions of Liability) of Maine’s Superior Court of Aroostook
County is unreported and is reproduced in the Appendix at B(l)-1
The second half of the bifurcated decision (Final Judgment) of Maine’s
Superior Court of Aroostook County is unreported and is reproduced in the
Appendix at B(2)-l
The order of Maine’s Supreme Court denying a Petition for Review was
issued on December 3, 2020 and is reproduced in the appendix at C-l
BASIS FOR JURISDICTION
The date of the decision sought to be reviewed is November 3, 2020.
Further review was denied on December 3, 2020. This Court has ordered
that, for now, the time for filing petitions for writ of certiorari be extended to
150 days from this later date.
The jurisdiction of this Court is conferred under 28 U.S.C. § 1257

1

CONSTITUTIONAL PROVISIONS AND STATUTE AT ISSUE
The Fifth Amendment of the US Constitution provides: “No person
shall be... deprived of life, liberty, or property without due process of law”.
The Fourteenth Amendment of the US Constitution provides: “Nor
shall any state deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the equal
protection of the laws”.
Maine Statute 14 M.R.S. §7552(5) states that “the owner may also
recover from the person who violates subsection 2 the reasonable costs of
professional services necessary for determining damages and proving the
claim as long as the person first has written notice or actual knowledge that a
claim is being asserted.

STATEMENT OF THE CASE
THE FACTUAL AND REGULATORY BACKGROUND
The trial court explained that Maine Statute “14 M.R.S. §7552(5)
requires that a trespasser must have received written notice or have actual
knowledge of his trespass before the reasonable costs of professional services
become implicated.” (Decision, App. B(l), pg 24)
The same court found that “There is no evidence that the Haffords ever
provided written notice to the Ballersteins before any of their offending
actions.” (Decision, App. B(l), pg 24)

2

The selfsame court concluded that “This fact would foreclose an award
for professional services under this statute”. (Decision, App. B(l), pg 24)
The court amended its finding (despite there being no new evidence
whatsoever) and found that the defendants “did have sufficient prior written
notice or actual knowledge”. (Final Judgment, App. B(2), pg 3)
Simultaneously with amending its finding, the court acknowledged that
meeting the statutory requirement remained a “factual impossibility”. (Final
Judgment, App. B(2), pg 3)
The offending branch pruning actions at issue were completed, in good
faith, within the year 2017; absolutely no notice was given at that time.
(Decision, App. B(l), pg 23, 24)
And the court acknowledged that “The date on which the Ballersteins
had this notice and/or knowledge was September 18, 2018. (Final Judgment,
App. B(2), pg 7)
The court invoked the selfsame statute anyway, and found the
defendants liable for “professional services pursuant to 14 MRS §7552(5)”.
(Final Judgment, App. B(2), pg 3)
The court explained that the statute in question was intended for
timber trespass of large scale commercial logging operations. (Final
Judgment, App. B(2), pg 3, footnote 5)
This case only involves residential lots in an urban neighborhood
(Decision, App. B(l), pg 2)

3

The court created its own “most reliable solution” against the
defendants “notwithstanding the precision or exactness of the language
used”. (Decision, App. B(l), pg 9)
RAISING OF THE FEDERAL QUESTIONS
Federal Questions and the trial court
The federal questions originated when the trial court completely
reversed itself, regarding costs of services, from its original decision to an
altered final judgment. These issues were both created and finalized
simultaneously.
The trial court passed on the questions before they could be raised, as it
had already admonished that its “judgment will be subject to appellate
review by either party in all respects if they so choose”. (Decision, App. B(l),
pg 34)
Also, the trial court had already warned the defendants about pursuing
“endless litigation” (Decision, App. B(l), p34) To the extent, if any, that
further raising was even possible after its Final Judgment, it would have
been imprudent, if not dangerous, for the defendants to do so.
Federal Questions and the appellate court
The defendants raised the federal questions within their appellate
briefs, as part of the standard appeal process. In their principle brief, they
asked for a completely new consideration of the entire case, from the
beginning, de novo. (Brief, App. D, pgl4, 15) In their reply brief they stated

4

that the trial court “acknowledged that the statutory requirements had not
been met, but then simply waived the requirements” (Reply Brief, App. E, pg
14) And they explained how unjust and unfair that was, as it was proof of
judicial prejudice/bias against them. (Reply Brief, App. E, pg 14-16)
Maine’s appellate court passed on the questions by completely ignoring
them. It issued a Memorandum of Decision, which asserted no error at all
and summarily affirmed the trial court’s entire altered judgment.
(Memorandum of Decision, App. A, pg 1) It went so far as to include the
terms “with finality”. (Memorandum of Decision, App. A, pg 2) The
defendants submitted a Motion for Reconsideration, but it was simply denied.
REASONS FOR ALLOWANCE OF THE WRIT
Further clarification of Due Process includes easy-to-reach,
fundamentally vital questions of Constitutional law that have not
been, but should be, settled by this Court.
The petitioners have worked to reason appropriately with the Supreme
Court of the United States, and squarely address the questions of law
presented for review; they invite the most careful scrutiny of the record.
Perhaps surprisingly, this case is nationally important; it presents a unique
opportunity to create just rules of law, which will protect all Americans, in
the greatest generality of cases. The questions presented provide a prime
vehicle for safeguarding life and liberty, as well as property. And may it
please the Court.

5

The questions could not be easier to reach than they are in this case.
The court itself acknowledged every step that the petitioners need to show;
Statutory requirements were not met, there was literally zero (0) evidence
which went to show they were met, and the actual facts of the case made it a
“factual impossibility” that they could ever be met. But the court invoked the
statute anyway, and ordered that the defendants be deprived of their
property, pursuant to that statute, for the plaintiffs’ benefit.
The questions could not be more fundamentally vital than they are in
this case. The defendants’ civil rights have been knowingly disregarded and
purposefully violated, contrary to the dear and specific terms of statutory
law. In this case, due process and the rule of law have entirely broken down.
Jurisdiction conferred; Property was deprived without Due Process
Jurisdiction of this case has been distinctly transferred to SCOTUS.
The petitioners were deprived of their property without Due Process,
contrary to the terms of the US Constitution. And all of the other
requirements have also been met. The issues were raised appropriately
within Maine courts, but were simply ignored. Maine’s highest appellate
court is done with it. Therefore, jurisdiction of this case has been transferred
in a most straightforward way.
The Questions of Law were sufficiently raised, but justice requires
full consideration of this petition even regardless
The defendants have adequately brought the Questions of Law up
for appellate review within their Briefs; the trial court’s actual prejudice/bias

6

was shown and discussed for a solid three pages. And, as a matter of law
“Due process guarantees an absence of actual bias on the part of a judge.”
Willi am s v. Pennsylvania. 136 S. Ct. 1899,1905, 195 L. Ed. 2d 132 (2016).
Therefore, the defendants sufficiently notified Maine’s highest court that an
insufficient Due Process claim was being asserted.
When justice required it, SCOTUS has made exceptions “to consider
petitioners’ claims that were not raised or addressed below.” Yee v. City of
Escondido. Cal.. 503 U.S. 519, 533, 112 S. Ct. 1522, 1531, 118 L. Ed. 2d 153
(1992). Basic justice fundamentally requires that SCOTUS consider the
questions of law presented in this petition. Therefore, the defendants’ level of
adequacy of raising the questions becomes a moot point.
Civil courts must be bound by the terms of statutory law
Civil rights are only meaningful if consistently applied by civil courts.
Written promises on paper are worthless if the actual terms can be
arbitrarily ignored and overridden. A court’s purpose is to actually apply
statutory law, not violate it on a whim.
The same logic argued here, regarding this civil case, has already been
Opined recently by SCOTUS in regards to both criminal and bankruptcy
courts. A court ‘lacks the power to exact a penalty that has not been
authorized by any valid criminal statute.” Welch v United States. 136 S. Ct.
1257, 1268, 194 L. Ed. 2d 387 (2016). Likewise, “a bankruptcy court may not
contravene specific statutory provisions.” Law v Siegel. 571 U.S. 415, 421,

7

134 S. Ct. 1188, 1194, 188 L. Ed. 2d 146 (2014). Therefore, it logically follows
that civil courts should be held to this same reasonable standard.
v An unfair Civil trial cannot provide due process;
any Civil judgment resulting from an unfair trial is entirely invalid
Civil suits are fundamentally different from criminal and other types of
litigation. In civil litigation, all parties can lay claim to right and rights. A
court’s mandate in a civil action is to separate the competing claims of right,
and determine the actual rights of the parties. It is imperative that the court
itself remain absolutely impartial throughout; any favoritism towards one
party necessarily obstructs justice for the other. Perhaps more so than in any
other type of litigation, a civil court’s demonstrated bias against a party
invalidates its entire judgment against them, because it shows that their civil
rights were never given adequate consideration.
The entire purpose of a court of law is to actually apply the law in
whatever case is at hand. For a court to intentionally override the law,
contrary to the facts, simply to favor one party over the other, is the pinnacle
of bias, prejudice, and "unfair”. And “a fair trial in a fair tribunal is a basic
requirement of due process.” In re Murchison. 349 U.S. 133, 136, 75 S. Ct.
623, 625, 99 L. Ed. 942 (1955). Therefore, the defendants’ unfair trial in an
unfair tribunal failed to meet the requirements of due process. Therefore,
since due process is guaranteed, and the defendants’ rights were never given
adequate consideration, the entire judgment resulting from such an unfair
trial must be entirely invalidated.

8

Nobody deserves such an unfair and biased civil trial as the defendants
have had. Nothing they ever did, or showed, or said ever made any
difference. And when they appealed to the higher court, that court failed to
consider the trial court’s prejudice/bias, which the defendants had explained
to them for over three pages of appellate brief. But America’s citizens
deserve better. For justice to prevail, it will require a brand new look, with a
new court that is open and impartial to both sides.
SCOTUS; the Protector of all Civil Rights
The terms of controlling documents, including the US Constitution,
must be taken to mean what they say, plain and simple. No court has the
prerogative to ignore a state legislature’s statutory terms, just as no state has
the prerogative to ignore the Constitution. And Due Process must be taken
to mean exactly that; nothing more, and nothing less.
Due process does not need to, and cannot, guarantee victory. Nobody
expects that it would. But Due Process must guarantee that both sides have
a fair chance. And that the written statutory law will be applied. And that
the specific words of a controlling document actually matter. And that actual
evidence is important. And that time marches forwards, and does not run
backwards. And that reason is paramount. And that impartiality is a
requirement.
The present case is uniquely positioned to unify SCOTUS in common
cause. Jurisdiction has been transferred per the plain and ordinary meaning

9

of the terms of the US Constitution, and the civil rights of the petitioners
have been trampled so thoroughly that the most beneficial rules of law can be
justly crafted. The silver lining remains that their case gives SCOTUS a
special chance to reassure this great Nation, and also show the world, that
the US still delivers on its founding promises.
CONCLUSION
Civil Rights are the crowning achievement of western civilization. And
the United States led the world in establishing a system of government that
could provide and protect those rights. The questions presented squarely
address whether those civil rights, as clearly expressed by the legislatures of
the people, can be overridden and violated by any court that so arbitrarily
chooses.
Due Process is the bedrock of American freedom. It is Constitutionally
protected for good reason. Therefore, SCOTUS should grant this writ not just
for the sake of these petitioners alone, but for all citizens of the United States
of America. Aspects of this case uniquely allow it to serve as the vehicle for
needed clarification. This case presents a golden opportunity for SCOTUS to
assert its legitimate authority and craft rules of law which will secure the
Constitutionally guaranteed Right to Due Process, and more firmly establish
justice for all.
Paul and Goldie Ballerstein
37 Dupont Drive
Presque Isle, Maine, 04769
(207)-551-1338

10

Respectfully submitted in good faith conformance with all Rules,
Executed on:
Paul Ballerstein

Alikt

Executed on:^

jo^l

Goldie Ballerstein
In order for the signature above to be notarized, personally there appeared
before me Goldie Ballerstein, and made affirmations that their signature was
made as a free act under their own free will.

kfXlu/\rs?fy
Signature

Ky-mte fcvradu S

jAhfeUdl
BROOKE E PARADIS
Notary Public-Maine
My Commission Expires
September 17, 2026

Printed Name
APPENDIX: TABLE OF CONTENTS
“Memorandum of Decision”, Maine Supreme Court, decided 11/3/2020

A-l

“Decision Re: Declaratory Judgments and Questions of Liability”, Maine
Superior Court: Aroostook County, entered 1/31/2020
B(l)-1
“Final Judgment”, Maine Superior Court: Aroostook County,
entered 3/5/2020.........................................................................

B(2)-l

“Order Denying Motion for Reconsideration”, Maine Supreme Court,
dated 12/3/2020....... .................................................................................

C-l

“Brief for Appellants” pages 14, 15

D-l

“Reply Brief for Appellants” page 14-16

E-l

11

